APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Third Circuit (October 1, 2020) ................... 1a
Memorandum Opinion of the United States
District Court for the Middle District of
Pennsylvania (October 18, 2019) ....................... 8a
Order of the United States District Court for the
Middle District of Pennsylvania
(October 18, 2019) ............................................ 22a
Opinion of Bankruptcy Court for Middle District
of Pennsylvania on Motion for Summary
Judgment (March 8, 2018) ............................... 24a
Order of the United States Bankruptcy Court
Granting Defendants’ Motion for Summary
Judgment (March 22, 2018) ............................. 34a
REHEARING ORDER
Order of the United States Court of Appeals for
the Third Circuit Denying Petition for
Rehearing En Banc (October 28, 2020) ........... 37a
STATUTORY PROVISIONS
Statutory Provisions Involved ................................ 39a
OTHER DOCUMENT
Second Amended Chapter 13 Plan
(December 27, 2017) ......................................... 53a

App.1a
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT
(OCTOBER 1, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
IN RE: LLOYD ALLAN JONES
a/k/a Lloyd A. Jones; a/k/a Lloyd Jones,

Debtor,
LLOYD ALLAN JONES

Appellant,
v.
U.S. BANK, N.A., as Trustee for Residential Asset
Securities Corporation, Home Equity Mortgage
Asset-Backed, Pass-through Certificates, Series
2006-EMX9; AMERICA’S SERVICING COMPANY,
________________________
No. 19-3899
On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. No. 3-18-cv-01680) District Judge:
Honorable Robert D. Mariani
Submitted under Third Circuit L.A.R. 34.1(a)

 This disposition is not an opinion of the full court and pursuant to I.O.P. 5.7 does not constitute binding precedent.

App.2a
Before: SHWARTZ, PHIPPS, and FISHER,
Circuit Judges.
SHWARTZ, Circuit Judge.
Debtor Lloyd Jones appeals the District Court’s
order affirming the Bankruptcy Court’s order that
granted summary judgment to Defendants U.S. Bank,
N.A. and America’s Servicing Company. Because the
Bankruptcy Court correctly concluded that Jones
sought to modify Defendants’ mortgage on his residence, in violation of 11 U.S.C. § 1322(b)(2) and Nobelman v. American Savings Bank, 508 U.S. 324 (1993),
we will affirm.
I
In 2006, Jones obtained a $208,800 loan to purchase his principal residence. The loan was secured
by the residence and had an adjustable interest rate
of 11.75%. The mortgage and note were assigned
to U.S. Bank.
In 2016, Jones sought protection under Chapter
13 of the Bankruptcy Code. U.S. Bank filed a proof of
claim in the amount of $446,812.25.1 Jones filed a
First Amended Chapter 13 Plan, followed by a Second
Amended Plan (“Plan”), proposing to satisfy U.S.
Bank’s secured claim by making payments up to
$136,000, the stipulated market value of the property,
plus 5.5% interest, for a total of $155,865.60. U.S.
Bank objected to the Plan.
1 The $446,812.25 consisted of $229,867.36 in outstanding principal, $172,909.24 in accrued interest, $7,324.56 for fees and costs,
and $36,711.09 for funds advanced by the lender or servicer
to pay escrow items.

App.3a
Jones then filed an adversary proceeding against
Defendants, seeking a declaratory judgment that: (1)
the amount of U.S. Bank’s claim in excess of the
market value of his residence was unsecured and
thus void under 11 U.S.C. § 506(d) (Count I); and (2)
the Plan did not modify U.S. Bank’s claim under
§ 1322(b)(2), but satisfied it under § 1325, and thus
did not violate § 1322(b)(2)’s prohibition on modifying
the rights of a creditor whose claim is secured solely
by the debtor’s principal residence (Count II).
The parties cross-moved for summary judgment.
The Bankruptcy Court granted summary judgment to
Defendants, held that the Plan’s proposed treatment
of U.S. Bank’s secured claim violated § 1322(b)(2),
and directed Jones to file a Plan that did not
propose to modify U.S. Bank’s rights. Jones appealed
to the District Court.
The District Court affirmed, holding, among other
things, that the Bankruptcy Court correctly held that
the Plan violated § 1322(b)(2) because Jones sought
to modify U.S. Bank’s rights in a secured claim on his
principal residence. Jones v. U.S. Bank, N.A., No. 3:18CV-01680, 2019 WL 5296993, at *5 (M.D. Pa. Oct. 18,
2019).2 Jones appeals.
2 The District Court incorrectly held that it lacked jurisdiction,
viewing the appeal as one from a nonfinal, interlocutory order
denying confirmation of the Plan, Jones, 2019 WL 5296993, at
*3, instead of an appeal of an order granting summary judgment in an adversary proceeding. District Courts have “jurisdiction to hear appeals . . . from final judgments, orders, and
decrees . . . of bankruptcy judges in cases and proceedings.” 28
U.S.C. § 158(a)(1). Section 158(a)(1) gives a district court jurisdiction over both “cases and proceedings” since “the usual judicial unit for analyzing finality in ordinary civil litigation is the case,

App.4a
II3
Normally, in bankruptcy, “a claim that is secured
by a lien on property is treated as a secured claim
‘only to the extent of the value of the property on which
the lien is fixed,’” and the remainder is unsecured.
In re Scarborough, 461 F.3d 406, 409-10 (3d Cir. 2006)
(quoting United States v. Ron Pair Enters., Inc., 489
U.S. 235, 239 (1989)); see 11 U.S.C. § 506(a)(1).4 As a
[but] in bankruptcy[,] it is [often] the proceeding.” Ritzen Grp.,
Inc. v. Jackson Masonry, LLC, 140 S. Ct. 582, 587 (2020) (alterations in original) (citation omitted). These proceedings sometimes
“involve[] ‘an aggregation of individual controversies,’ many of
which would exist as stand-alone lawsuits but for the bankrupt
status of the debtor.” Bullard v. Blue Hills Bank, 135 S. Ct. 1686,
1692 (2015) (citation omitted). One example is an adversary
proceeding. “[A] bankruptcy court order ending a separate
adversary proceeding,” like the order here, “is appealable as a
final order even though that order does not conclude the entire
bankruptcy case.” In re Odyssey Contracting Corp., 944 F.3d
483, 486 (3d Cir. 2019) (citation omitted). Thus, the District Court
had jurisdiction over Jones’s appeal from the Bankruptcy Court’s
order under § 158(a)(1).
3 We have appellate jurisdiction under 28 U.S.C. §§ 158(d) and
1291. “Our review of a District Court sitting in review of a
Bankruptcy Court is plenary,” In re Energy Future Holdings
Corp, 949 F.3d 806, 815 n.2 (3d Cir. 2020), and “we ‘stand in the
shoes’ of the district court and apply the same standard of review,”
In re Klaas, 858 F.3d 820, 827 (3d Cir. 2017) (citation omitted).
Our review of legal issues, such as statutory interpretation, is
also plenary. In re Scarborough, 461 F.3d 406, 409 (3d Cir. 2006).
4 Section 506(a)(1) provides:
An allowed claim of a creditor secured by a lien on
property in which the estate has an interest . . . is a
secured claim to the extent of the value of such
creditor’s interest in the estate’s interest in such
property . . . and is an unsecured claim to the extent

App.5a
result, “a claim that is not fully collateralized can be
modified, and the creditor[’s claim is] said to be
‘crammed down’ to the value of the collateral.” In re
Ferandos, 402 F.3d 147, 151 (3d Cir. 2005).
Section 1322(b)(2) of the Bankruptcy Code, however, provides that a debtor may not “modify the
rights of holders of secured claims . . . secured only
by a security interest in real property that is the
debtor’s principal residence.” 11 U.S.C. § 1322(b)(2).
Put differently, a debtor cannot change the terms of
a mortgagee’s rights where those rights are secured
only by the debtor’s principal residence. The mortgagee’s “contractual rights are contained in a unitary
note that applies . . . [to] both the secured and unsecured components.” Nobelman v. Am. Sav. Bank, 508
U.S. 324, 331 (1993). These rights, “reflected in the
relevant mortgage instruments,” include “the right to
repayment of the principal in monthly installments
over a fixed term [and] specified adjustable rates of
interest [as well as] the right to retain the lien until the
debt is paid off.” Id. at 329. Because the mortgagee’s
rights apply to both the secured and unsecured portions
of the debt, a debtor “cannot modify the payment and
interest terms for the unsecured component . . . without
also modifying the terms of the secured component.”
Id. at 331.
Here, in proposing to pay U.S. Bank’s claim up
to the $136,000 market value of his principal residence
plus a reduced interest rate of 5.5% rather than
the full contract balance of $446,812.25, Jones seeks
to modify, not satisfy, U.S. Bank’s contractual
that the value of such creditor’s interest . . . is less
than the amount of such allowed claim.

App.6a
rights. His proposal changes the principal due from
$229,867.36 to $136,000 and the interest rate from
11.75% to 5.5%, and thus modifies U.S. Bank’s
contractual rights, which Nobelman and § 1322(b)
(2) prohibit.5
The Bankruptcy Abuse and Consumer Protection
Act of 2005 amendment to § 1325(a) does not change
this result. Congress amended § 1325(a) with respect
to purchase money security interests in a debtor’s
personal vehicle, providing that, under certain circumstances, § 506’s definition of the value of a secured
claim does not apply. This amendment does not apply
to secured liens on a debtor’s principal residence.
Moreover, it does not disturb § 1325(a)’s requirement
that, to be confirmed, a plan must comply with other
provisions of Chapter 13, including § 1322(b)(2). Jones’s
proposed reduction to the value of the principal and
the interest rate modifies U.S. Bank’s claim and does
not comply with § 1322(b)(2).
Although Pennsylvania real estate law permits
a first mortgage lender to recover only the value of
the property in the event of foreclosure, and there may
5 In re Bellamy, 962 F.2d 176 (2d Cir. 1992), and In re McDonald,
205 F.3d 606 (3d Cir. 2000), do not help Jones. First, Nobelman
rejected Bellamy’s view that bifurcating a mortgagee’s claim
into secured and unsecured portions does not modify the
mortgagee’s rights. Nobelman, 508 U.S. at 332. Second, McDonald
examined the propriety of modifying a “wholly unsecured”
second mortgage, and we held that such an unsecured mortgage
“is not subject to the anti-modification clause in § 1322(b)(2),”
205 F.3d at 615, since the bank is not “a holder of a claim
secured by the debtor’s residence,” id. at 612. Unlike the
mortgagee in McDonald, Jones has a first mortgage, secured up
to the market value of his home, and thus U.S. Bank’s “lien still
attache[s] to some existing value in [Jones’s] house.” Id. at 611.

App.7a
be a public interest in allowing debtors to propose ways
to remain in their homes, we are obligated to follow
the governing federal statute and binding precedent.
As a result, because Jones’s plan improperly sought to
modify U.S. Bank’s rights in violation of § 1322(b)(2),
the District Court correctly granted Defendants’
motion for summary judgment.
III
For these reasons, we will affirm.

App.8a
MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF PENNSYLVANIA
(OCTOBER 18, 2019)
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF PENNSYLVANIA
________________________
LLOYD ALLEN JONES,

Appellant,
v.
U.S. BANK, N.A., AND AMERICA’S
SERVICING COMPANY,

Appellees.
________________________
No. 3:18-cv-01680
On Bankruptcy Appeal
Before: Robert D. MARIANI,
United States District Court Judge.
I.

Introduction

This case comes before the Court on appeal from
the order issued by Middle District of Pennsylvania
Bankruptcy Court Judge John J. Thomas on March
22, 2018, granting summary judgment to U.S. Bank.
(Doc. 1-1). Appellant, Lloyd Allen Jones, argues that
Judge Thomas erred in rejecting Appellant’s Proposed
Second Amended Plan on the basis that Appellant’s

App.9a
proposal for satisfaction of a secured claim in Debtor’s
residence as provided by the Proposed Second Amended
Plan constituted a modification prohibited by 11 U.S.C.
§ 1322(b)(2) and Nobelman v. American Say. Bank.,
508 U.S. 324 (1993). For the reasons that follow, the
Court will deny Jones’ appeal, affirm the Bankruptcy
Court’s March 22, 2018, order, and remand the case
to the Bankruptcy Court for further proceedings.
II.

Factual Background and Procedural History

On August 18, 2006, Appellant and Debtor Lloyd
Allan Jones (“Jones”) and his then-wife, Carla A. Jones,
executed an Adjustable Rate Note in favor of Mortgage
Lenders Networks USA, Inc., evidencing their obligation to repay a loan made to them by MMLN in the
original principal amount of $208,800 (Doc. 2, at 23134). Pursuant to the Note, Jones was required to repay
the Loan in full over thirty years by making 360 consecutive monthly payments of the principle, with accrued
interest based on an adjustable interest rate. (Id.).
Moreover, the Note provided that the initial interest
rate was 11.7508% per annum, and the initial monthly
payment was $2,107.65. ( Id.). On August 18, 2006,
Appellant executed a first lien mortgage encumbering the property. (Id.).
On September 22, 2008, Jones and Appellees
entered into a “Loan Modification Agreement,” where
Appellants agreed that the Note would be modified
as follows:
(a) as of October 1, 2008, the unpaid principal
balance of the Note would be $231,314.23;
(b) interest would accrue on this new unpaid
principal balance at a fixed rate at 11.750%
per annum; (c) the new principal and interest

App.10a
payments would be in the amount of
$2,354.97 per month beginning with the
payment due on November 1, 2008; (d) the
original maturity date of September 1, 2036
would remain in effect; (e) the Borrowers
would make the new monthly principal and
interest payments to the ‘Lender’ until all
principal and interest was paid in full; and
(f) if the Borrowers still owed amounts under
the Note and Mortgage, as modified by the
Loan Modification Agreement, on the Maturity Date, those sums would be paid in full
on the Maturity Date.
(Doc. 12, at 22) (citing Doc. 2, at 265-67).
Jones filed a Chapter 13 Bankruptcy case on May
25, 2016, with the United States Bankruptcy Court
for the Middle District of Pennsylvania. (Doc. 7, at 1).
On that same day, Jones also filed an original proposed
Chapter 13 plan. (Id.). On September 29, 2016, Appellees filed a secured proof of claim of a mortgage, establishing that the amount of debt owed by Appellant to
U.S. Bank as of the petition date was $446,812.25.
(Doc. 2, at 53). In addition to the proof of claim, Appellees attached a Mortgage Proof of Claim Attachment
(Official Form 410-A) (to indicate that the mortgage
is secured by the Debtor’s principal business), an
adjustable rate note, a mortgage, an assignment of
the mortgage, a loan modification agreement, and an
escrow account disclosure statement. (Id. at 53-67).
On November 4, 2016, Appellant filed a First
Amended Chapter 13 Plan, wherein Appellant proposed
payments equal to the fair market value of the property plus interest at 5.5% per annum. (Id. at 70-77). On
December 12, 2016, U.S. Bank objected to confirmation

App.11a
of the First Amended Plan. (Id. at 78-79). On March 6,
2017, Appellant then initiated an adversary proceeding, based on the First Amended Plan against U.S.
Bank to seek declaratory relief to: (1) value the property as of the petition date at $135,000 and to determine that the U.S. Bank had a secured claim in the
amount of $135,000 and an unsecured claim for all
additional amounts owed by the debtor in excess of
$135,000; (2) declare void the amount of the lien which
exceeded $135,000, to the extent that U.S. Bank held
a lien against the property that was greater than
$135,000; and (3) declare that the First Amended
Plan could be confirmed in that Section 1322(b)(2)
and Nobelman v. American Say. Bank., 508 U.S. 324
(1993), did not apply to Debtor’s case because the
First Amended Plan did not propose “to ‘modify’ U.S.
Bank’s mortgage or claim, but rather to satisfy it.”
(Id. at 1-14).
On January 4, 2018, pursuant to an agreement
between the parties, Appellant filed a Second Amended
Plan, which is the same in all respects as the First
Amended plan, except that it reflected the agreedupon fair market value of the property of $136,000.
(Doc. 2-1). Thereafter, the adversary action reviewed
the Second Amended Plan.
In the Bankruptcy Court, after the close of discovery, Appellees moved for summary judgment. (Id.
at 167-72). On March 20, 2018, oral argument was
held on the motion for summary judgment. (Doc. 3).
On March 22, 2018, the United States Bankruptcy
Court for the Middle District of Pennsylvania entered
an order granting summary judgment in favor of
Appellees. (Doc. 1-1). In that order, the Bankruptcy
Judge: (1) valued the Debtor’s residence at $136,000

App.12a
(as agreed by the parties); (2) allowed the U.S. Bank
Secured Claim to have a secured claim in the Debtor’s
underlying bankruptcy case in the amount of $136,000
and unsecured claim for all sums due under the Loan
Documents as of the Petition Date that are in excess
of $136,000; (3) declined to declare void the amount of
the lien which exceeded $136,000; (4) held that Appellant was not entitled to declaratory relief because the
Second Amended Plan’s proposed treatment of Appellees’ secured claim violated 11 U.S.C. § 1322(b)(2) and
the Supreme Court’s holding in Nobelman; (5) denied
confirmation of the Second Amended Plan because it
did not comply with 11 U.S.C. § 1322(b)(2); and (6)
directed Appellant to file a Third Amended Chapter
13 Plan within thirty days of the date of entry of the
Summary Judgment Order that did not modify U.S.
Bank’s rights and otherwise complied with the Bankruptcy Code. (Id.). To date, Appellant has yet to file
the Third Amended Plan as required by the March
22, 2018, order.
On April 19, 2018, Appellant filed a notice of
appeal regarding the March 22, 2018, order to appeal
the order directly to the United States Court of Appeals
for the Third Circuit. (Doc. 7, at 2). On that same
day, Jones filed a Request for Certification of Direct
Appeal to the Court of Appeals, which Judge Thomas
granted on May 9, 2018. (Doc. 2, at 7). In the Bankruptcy Court, on May 7, 2018, Appellant moved to
stay the summary judgment order pending appeal,
but that motion was denied on June 5, 2018, by Judge
Thomas. (Doc. 52). On June 8, 2018, Jones filed a
Petition for Permission to Appeal and a Motion to
Stay Order Pending the Appeal with the Third Circuit.
(Doc. 9, at 2). However, on August 22, 2018, the petition

App.13a
to appeal and a subsequently-filed motion for stay of
order pending appeal were both denied by the Third
Circuit without opinion. (Doc. 5-3). On August 23,
2018, an appeal “from [the Bankruptcy Court’s] order
granting summary judgment in favor of Defendants,
which also denied confirmation of a Chapter 12 Plan
on the Basis of a violation of 11 U.S.C. § 1322(b)(2)”
was brought before this Court. (Doc. 1). Thereafter, on
September 5, 2018, Appellant filed a motion to stay
the March 22, 2018, order pending appeal (Doc. 5),
which this Court denied on October 11, 2019 (Docs.
16, 17).
III. Analysis
Jones appeals the Bankruptcy Court’s decision
on the grounds that the Bankruptcy Court erred in
concluding that Jones’ Second Amended Plan “modifies” Appellees’ rights in violation of 11 U.S.C.
§ 1322(b)(2). (Doc. 9, at 3). Jones argues that his plan,
instead, “satisfies” the secured claim, which is
“distinguishable from modification, which by definition
leaves a claim partially intact.” (Id.). For the reasons
that follow, the Court rejects Jones’ arguments.
1. Interlocutory Order
Appellees note that that the March 22, 2018, order,
at issue in this appeal is an “interlocutory order and
can only be appealed pursuant to 28 U.S.C. § 158(a)(3)
and its [sic] not appealable as of right as a final order
or judgment under 28 U.S.C. § 158(a)(3).” (Doc. 12, at
19 n.5). The Court finds that Appellant’s underlying
appeal is from an interlocutory order of the Bankruptcy
Court, as to which Appellant has not filed a motion for
permission to appeal pursuant to 28 U.S.C. § 158(a)(3).

App.14a
A party can typically only appeal as of right from
a final decision in ordinary civil litigation. See Swint
v. Chambers Cty. Comm’n, 514 U.S. 35, 42 (1995).
Bankruptcy cases differ, however, in that “[a] bankruptcy case involves ‘an aggregate of individual controversies,’ many of which would exist as a stand-alone
lawsuits but for the bankrupt status of the debtor.”
Bullard v. Blue Hills Bank, 135 S. Ct. 1686, 1692 (2015)
(quoting 1 Collier on Bankruptcy ¶ 5.08[1][b], p. 5-42
(16th ed. 2014)). In bankruptcy cases, “Congress has
long provided that orders in bankruptcy cases may
be immediately appealed if they dispose of discrete
disputes within the larger [bankruptcy] case.” Howard
Delivery Service, Inc. v. Zurich American Ins. Co.,
547 U.S. 651, 657 n.3 (2006).
Nonetheless, an order denying confirmation of a
plan is “not final, so long as it leaves the debtor free
to propose another plan.” Bullard, 135 S. Ct. at 1692.
The Supreme Court further explained that a denial
of a plan confirmation is not final because
[d]enial of confirmation with leave to amend
. . . changes little. The automatic stay persists.
The parties’ rights and obligations remain
unsettled. The trustee continues to collect
funds from the debtor in anticipation of a
different plan’s eventual confirmation. The
possibility of discharge lives on. “Final” does
not describe this state of affairs. An order
denying confirmation does rule out the specific
arrangement of relief embodied in a particular plan. But that alone does not make the
denial final any more than, say, a car buyer’s
declining to pay the sticker price is viewed

App.15a
as a “final” purchasing decision by either
the buyer or seller. “It ain’t over till it’s over.”

Id. at 1693.
Here, the order in this underlying appeal arises
out of a bankruptcy proceeding that ultimately seeks
to confirm a Proposed Plan which the Bankruptcy
Court rejected. (Doc. 11, at 2). In doing so, the Bankruptcy Court directed Appellant to file another Plan
consistent with its determination that Appellant’s
Second Amended Plan violated 11 U.S.C. § 1322(b)(2).
(Id.). Appellant has yet to file a Third Amended Plan.
Although the time for doing so has long lapsed, nothing
in the record suggests that Appellant is no longer
obligated or allowed to provide a plan. Thus, the order
in this underlying appeal falls squarely in line with
the order described by the Supreme Court in Bullard,
which the Supreme Court concluded was interlocutory.
Furthermore, pursuant to 28 U.S.C. § 158(a)(3),
Appellant has neither sought nor been granted leave
to appeal the interlocutory order as required. Under
28 U.S.C. § 158(a)(3), a district court shall have jurisdiction to hear appeals “with leave of court, from other
interlocutory orders and decrees” of the Bankruptcy
Court. However, this Court has not provided such leave
and declines to do so. See In re W.R. Grace & Co.,
2009 U.S. App. LEXIS 29818, at *3 (3d Cir. 2009)
(“Because the Bankruptcy Court’s order was interlocutory, the District Court’s decision whether to exercise
jurisdiction to review the order . . . was discretionary.”)
(citing 28 U.S.C. § 158(a)(3)). Accordingly, the interlocutory nature of the underlying appeal without proper
leave provides a basis for denying this appeal.

App.16a
2. Merits
Assuming, arguendo, that the underlying appeal
is not interlocutory in nature, the District Court would
have jurisdiction to hear this appeal from a Bankruptcy
Court’s final order pursuant to 28 U.S.C. § 158(a)(1).
The Court reviews “the Bankruptcy Court’s findings
of fact for clear error and exercise[s] plenary review
over questions of law.” In re Hechinger Inv. Co. of
Delaware, Inc., 489 F.3d 568, 573 (3d Cir. 2007). “A
finding of fact is clearly erroneous only if it is
‘completely devoid of minimum evidentiary support
displaying some hue of credibility or bears no rational
relationship to the supportive evidentiary data.’“
Havens v. Mobex Network Servs., LLC, 820 F.3d 80,
92 (3d Cir. 2016) (quoting Berg Chilling Sys., Inc. v.
Hull Corp., 369 F.3d 745, 754 (3d Cir. 2004)).
Jones appeals the order issued by Judge Thomas
on March 22, 2018, that rejected Jones’ Proposed
Second Amended Plan on the basis that it violated 11
U.S.C. § 1322(b)(2) and Nobelman. (Doc. 1). Jones
contends that the Second Amended Plan does not
constitute a modification in violation of 11 U.S.C.
§ 1322(b)(2) or Nobelman because it “satisfies and
eliminates” the mortgage pursuant to the application
of Section 506(a). (Doc. 7, at 6). This Court disagrees
that Jones’ Proposed Plan does not constitute a
modification in violation of § 1322(b)(2).
To ascertain the merits of the argument, the
Court will review the two relevant provisions of the
Bankruptcy Code at issue. 11 U.S.C. § 506(a) allows
Debtors “to modify creditors’ claims into secured and
unsecured portions.” In re Rones, 551 B.R. 162, 167
(D.N.J. 2016) (citing 11 U.S.C. § 506(a)). It provides
that “an allowed claim of a creditor secured by a lien

App.17a
on a property in which the estate has an interest . . . is
a secured claim to the extent of the value of such
creditor’s interest in such property” and is deemed
unsecured to the extent that it exceeds that value.
See United States v. Ron Pair Enters., Inc., 489 U.S.
235, 239 (1989). “The second relevant provision, the
antimodification clause, applies only to Chapter 13
bankruptcies. The antimodification clause states that
a Chapter 13 plan may ‘modify the rights of holders
of secured claims, other than a claim secured only by
a security interest in real property that is the debtor’s
principal residence. . . . ’” McDonald v. Master Fin.,
Inc. (In re McDonald), 205 F.3d 606, 609 (3d Cir. 2000)
(quoting 11 U.S.C. § 1322(b)(2)).
In Nobelman, the Supreme Court addressed the
interplay between 11 U.S.C. § 506(a) and 11 U.S.C.
§ 1322(b)(2). The Third Circuit’s summary of Nobelman
is instructive:
In Nobelman v. American Savings Bank,
the Supreme Court held that a Chapter 13
debtor who had a single mortgage with an
outstanding balance greater than the value
of the debtor’s residence could not divide the
mortgage, pursuant to 11 U.S.C. § 506(a),
into secured and unsecured parts and treat
only the secured part as subject to the antimodification clause. According to Nobelman,
the full outstanding balance of the mortgage
is governed by the antimodification clause.

McDonald, 205 F.3d at 607-08 (internal citations omitted). Thus, “the antimodification clause bars a debtor
from modifying the rights of a creditor who has a
claim secured only by the debtors principal residence.”
Id. at 609. “[I]f even one dollar of a creditor’s claim is

App.18a
secured by a security interest in a debtor’s principal
residence, then the entire claim—both secured and
unsecured portions—cannot be modified under Section
1322.” Rones, 551 B.R. at 168 (citing In re Vidal,
2013 WL 441605, at *3 (Bankr. D. Del. 2013)).
In this matter, Jones advances the exact argument
rejected by the Supreme Court in Nobelman. Like
the debtor in Nobelman, Jones is a Chapter 13 debtor
who also has a single mortgage with an outstanding
balance greater than the value of his residence.
Nobelman, therefore, clearly directs the outcome of
this case, and Jones’ argument to the contrary is
without merit.
More specifically, Jones’ argument that the Second
Amended Plan “satisfied” the mortgage rather than
“modified” it — fails to consider that the Proposed
Second Amended Plan indeed modifies, among other
things, the interest rate to 5.5 % from the 11.25 %
applied in the contract. See Nobelman, 968 F.2d at
331-32. Moreover, the Second Amended Plan proposes
a modified principal balance of $136,000, yet Appellees’
proof of claim establishes a claim of $446,812.25. As
such, in line with Nobelman, these modifications violate
§ 1322(b)(2). In Jones’ case, a modification of anything
with respect to the creditor’s rights is a violation of
11 U.S.C. § 1322(b)(2).
Jones directs the court to McDonald v. Master
Fin., Inc (In re McDonald), 205 F.3d 606 (3d Cir. 2000),
which Jones argues supports his argument that
elimination and satisfaction of a mortgage does not
constitute a modification of Appellees’ rights. (Doc. 9,
at 8-9. Nonetheless, the Third Circuit in McDonald
reached the conclusion that there was no violation of
§ 1322(b)(2) because that case involved “a second or

App.19a
junior mortgage if that mortgage is wholly unsecured
by any remaining value in the residence.” McDonald,
205 F.3d at 608. The Third Circuit further explained,
[i]f a mortgage holder’s claim is wholly unsecured, then after the valuation that Justice
Thomas said that debtors could seek under
§ 506(a), the bank is not in any respect a
holder of a claim secured by the debtor’s
residence. The bank simply has an unsecured
claim and the antimodification clause does
not apply. On the other hand, if any part of
the bank’s claim is secured, then, under
Justice Thomas’s interpretation of the term
“claim,” the entire claim, both secured and
unsecured parts, cannot be modified.

Id. at 612. In light of that, the Third Circuit held “that
a wholly unsecured mortgage is not subject to the
antimodification clause in § 1322(b)(2).” Id. at 614.
That is clearly not the case here, where U.S. Bank’s
mortgage remains secured. Here, unlike the debtor
in McDonald, Jones’ claim is a single (first) mortgage
and is secured by a security interest in Jones’ residence,
at least to the fair market value of $136,000. Thus,
because the claim is secured by a security interest in
the debtor’s principal residence, and the mortgage is
a single (first) mortgage not completely undersecured,
McDonald is irrelevant, and, pursuant to Nobelman,
the claim cannot be modified under § 1322(b)(2).
Additionally, Jones argues that the Bankruptcy
Abuse Prevention and Consumer Protection Act
(“BAPCPA”) supports his argument that BAPCPA
allows secured claims that may not be modified to
nonetheless be satisfied by the interplay between § 506
and § 1322(b)(2). (Doc. 9, at 11). Jones is mistaken.

App.20a
He cites no authority to support the proposition that
BAPCPA altered Nobelman. Additionally, numerous
courts have found that Nobelman remains good law,
§ 1322(b)(2) or § 506(a). See, e.g., Wells Fargo Bank,
N.A. v. Scantling (In re Scantling), 754 F.3d 1323,
1329 (11th Cir. 2014) (finding that BAPCPA did not
amend sections 506 or 1322(b)); Branigan v. Davis
(In re Davis), 716 F.3d 331, 335-36 (4th Cir. 2013)
(finding that, in light of BAPCPA, the Supreme Court’s
interpretation of Nobelman still applies). Further,
“[w]hen Congress enacts legislation, it is presumed to
act with knowledge of the ‘existing law and judicial
concepts.” Id. at 226 (quoting Farina v. Nokia Inc.,
625 F.3d 97, 112 (3d Cir. 2010)). Here, where Nobelman
was decided well before BAPCPA, and where there is no
legislative history establishing that Congress intended
to modify Nobelman, this Court cannot conclude that
BAPCPA modified Nobelman in any way. Accordingly, the Court rejects Jones’ argument that BAPCPA
provides any support for its claim.
Finally, the Court rejects Jones’ argument that
“public policy supports retention of residences.” (Doc.
9, at 13). Jones provides no support for this argument,
and, as Appellees point out (Doc. 12, at 40), this argument is completely undermined by the concurrence in
Nobelman, which indicates “that favorable treatment of
residential mortgagees was intended [by Congress] to
encourage the flow of capital into the home lending
market. It therefore seems quite clear that the Court’s
literal reading of the text of the statute is faithful to
the intent of Congress.” Nobelman, 508 U.S. at 332
(Stevens, J., concurring).
In light of the foregoing, this Court cannot conclude
that the Bankruptcy Court was incorrect in determin-

App.21a
ing that confirmation of Jones’ Proposed Second
Amended Plan had to be denied due to a violation of
11 U.S.C. § 1322(b)(2).
IV. Conclusion
For the foregoing reasons, this Court will deny
Jones’ appeal, affirm the Bankruptcy Court’s March
22, 2018, order, and remand the case to the Bankruptcy
Court for further proceedings. A separate Order
follows.
/s/ Robert D. Mariani
United States District Court Judge

App.22a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE MIDDLE
DISTRICT OF PENNSYLVANIA
(OCTOBER 18, 2019)
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF PENNSYLVANIA
________________________
LLOYD ALLEN JONES,

Appellant,
v.
U.S. BANK, N.A., AND AMERICA’S
SERVICING COMPANY,

Appellees.
________________________
No. 3:18-cv-01680
On Bankruptcy Appeal
Before: Robert D. MARIANI,
United States District Court Judge.
AND NOW, THIS 18th day of October 2019, for
the reasons set forth in the accompanying Memorandum Opinion, IT IS HEREBY ORDERED THAT:
1. Appellant Lloyd Allen Jones’s appeal of the
order of the United States Bankruptcy Court for the
Middle District of Pennsylvania (Doc. 1) is DENIED.

App.23a
2. The Order of the United States Bankruptcy
Court for the Middle District of Pennsylvania (Doc.
1-1), issued on March 22, 2018, id AFFIRMED.
3. This case is REMANDED to the Unites States
Bankruptcy Court for the Middle District of Pennsylvania for further Proceedings.
4. The Clerk of Court is directed to CLOSE this
case in the district court for the Middle District of
Pennsylvania.
/s/ Robert D. Mariani
United States District Court Judge

App.24a
OPINION OF BANKRUPTCY COURT FOR
MIDDLE DISTRICT OF PENNSYLVANIA ON
MOTION FOR SUMMARY JUDGMENT
(MARCH 8, 2018)
UNITED STATES BANKRUPTCY COURT
MIDDLE DISTRICT OF PENNSYLVANIA
WILKES-BARRE DIVISION
________________________
IN RE: LLOYD ALLEN JONES,

Debtor.
________________________
LLOYD ALLEN JONES,

Plaintiff,
v.
U.S. BANK, NA, AS TRUSTEE FOR RESIDENTIAL
ASSET SECURITIES CORPORATION, HOME
EQUITY MORTGAGE ASSET-BACKED, PASSTHROUGH CERTIFICATES, SERIES 2006-EMX9
AND AMERICA’S SERVICING COMPANY,

Defendants.
________________________
Case No. 5:16-bk-02223
Chapter 13
Adversary No. 5:17-ap-00036
Max Rosann U.S. Courthouse
197 South Main Street
Wilkes-Barre, Pennsylvania 18701

App.25a
MOTION FOR SUMMARY JUDGMENT FILED
BY STEVEN J. ADAMS OF STEVENS AND LEE,
PC ON BEHALF OF AMERICA'S SERVICING
COMPANY, U.S. BANK, NA, AS TRUSTEE
FOR RESIDENTIAL ASSET SECURITIES
CORPORATION, HOME EQUITY MORTGAGE
ASSET-BACKED, PASS-THROUGH
CERTIFICATES, SERIES 2006-EMX9
BEFORE HONORABLE JOHN J. THOMAS
UNITED STATES BANKRUPTCY JUDGE
THE COURT: Number 36 on my list is Mr. Lloyd
Jones. We have Mr. Christman here; I gather we
have Mr. Adams on the telephone.
MR. ADAMS: Good morning, Your Honor; Steve
Adams.
THE COURT: We do have Mr. Christman in the
courtroom.
I gather this is an argument on summary judgment. I’ve already looked at your pleadings and
your briefs, and still the fight is over whether there
is any authority for me to take this mortgage—
which it’s agreed there’s a mortgage for a property
valued at much less than the balance due on the
mortgage.
MR. CHRISTMAN: Yes.
THE COURT: That the attempt is—by the debtor here
is to take this mortgage and alter it, pay it off by
using the fair value of the property, which is
stipulated to be in the nature of 100,000 plus,
and pay it over the life of the Chapter 13 plan at
a reduced rate of interest.

App.26a
MR. CHRISTMAN: At the—basically at a TIL rate,
Your Honor; yes.
THE COURT: I gather also that the mortgagee here
objects to that, and suggesting that’s a modification
in opposition to 1322(b)(2). But that the debtor
feels that it is not a modification at all because
you’re paying the mortgage off, but you’re doing
it over a point of time.
MR. CHRISTMAN: The critical distinction is what the
plan is doing. The plan is eliminating the mortgage entirely. The plan is satisfying the secured
claim via direct payment, unlike the only real—
the—the Nobelman case, people relying on for
what it does not say. People have relied on that
to—for the—a case that said you can’t reduce the
balance of your mortgage by bifurcating it into
secured and unsecured claim, and then discharge
an amount, and then have a mortgage leftover
that you’re continuing to pay over the remaining
life of the mortgage, right. It dealt with a very
particular factual situation. And it dealt with that
factual situation, not by even say—by stating that
bankruptcy modifies the rights of these creditors,
these holders of residential mortgage. It does
have an impact on their rights. It made the, you
know, critical indication that, you know, what
they couldn’t do was modify the mortgage in the
manner that it did.
We—in addition to the Nobelman not providing a
prohibition to the elimination of a mortgage over
the life of a plan where the plan eliminates it,
doesn’t modify it, it doesn’t leave something leftover, but eliminates the mortgage, that’s the
critical distinction.

App.27a
Your Honor, we have pretty much all of the Circuit
Courts saying you can somehow eliminate a wholly
unsecured second mortgage. And based on the
Nobelman opinion, if you look at how the
Nobelman opinion actually looks to State Court
rights to define the claim, you couldn’t do that.
A second mortgage under State Court—under
State law is a security interest. There is a security.
It can be eliminated by foreclosure on the first
mortgage. You know, certainly it could be satisfied
in that manner. It could be eliminated by a judicial tax sale. There are plenty of other ways that
a mortgage could be eliminated under State law.
The critical aspect—
THE COURT: Well, you’re not trying to eliminate this
under State law.
MR. CHRISTMAN: No.
THE COURT: You’re trying to eliminate it under the
plan.
MR. CHRISTMAN: The—I guess the—we have—we
have—
THE COURT: Let me ask you a question.
MR. CHRISTMAN: Yes.
THE COURT: Because the first thing that came to
mind when I’m looking at the pleadings here,
why don’t you just file a Chapter 11? Can’t you—
can’t you accomplish this in Chapter 11?
MR. CHRISTMAN: I—
THE COURT: Which does not have the barrier of
1322(b)(2).

App.28a
MR. CHRISTMAN: I believe that Chapter 11 has a
similar prohibition.
THE COURT: Does it?
MR. CHRISTMAN: I—
THE COURT: I’m not aware it does, but you may be
correct. So you’re asking me to—I mean I understand the mortgage here may allow you to prepay
it, but that would include the unsecured balance.
MR. CHRISTMAN: Right. But we’re not—we’re not
looking to—we’re looking to—
THE COURT: You’re looking to—
MR. CHRISTMAN: What 1322—
THE COURT: You’re looking to eliminate the unsecured
balance.
MR. CHRISTMAN: We’re looking to eliminate the
entirety of the mortgage by paying the value of
the property with an appropriate interest over
the life of the plan.
THE COURT: But you’re looking at altering the
interest rate from what’s provided in the contract
to something less.
MR. CHRISTMAN: The plan is eliminating the mortgage. The—as far as what interest rate you use,
it’s the present value, right. We don’t look at the
interest rate and the mortgage.
THE COURT: So you don’t call—
MR. CHRISTMAN: 1325—
THE COURT: You don’t call that a modification?

App.29a
MR. CHRISTMAN: It’s a modification when there’s
still a mortgage left at the end of the plan, Your
Honor. The very definition of—
THE COURT: Do you have any authority at all of—
specific authority that has done what you’re
suggesting? And that’s where I—I mean I never—
I didn’t find any cases that said what you said,
that you could strip off the unsecured portion of
a mortgage in Chapter 13, and not call it a
modification.
MR. CHRISTMAN: The—yet with regard to second
mortgages on a regular basis, those mortgages
are stripped off because they’re—
THE COURT: Not if they’re—
MR. CHRISTMAN:—somehow to distinguish—
THE COURT: Not if they’re partially secured, right?
MR. CHRISTMAN: The—
THE COURT: Let me—again, what I’m asking is have
you found any cases that allow a strip off—call it
a strip down—
MR. CHRISTMAN: Not since—
THE COURT:—of a mortgage without calling it a
modification?
MR. CHRISTMAN: Not—not since the Nobelman decision, Your Honor. Because the Nobelman decision
has been, you know, looked at to impose a barrier
that the Nobelman decision does not support. It’s
one of those cases where, you know, a Supreme
Court decision has been—

App.30a
THE COURT: Well, even the Third Circuit—the Third
Circuit has said that if there was a dollar of
collateral, then I can’t alter the terms, right?
MR. CHRISTMAN: The—that’s the interesting part.
If there—if in—according to State law, those
mortgages that the Third Circuit says you can
avoid completely if they don’t touch collateral,
they’re secured under State law. When you look
at Nobelman ’s analysis of what the underlying
claim is, right—
THE COURT: Answer my question, though: The Third
Circuit has said that I can’t strip off a mortgage
as long as there’s a dollar worth of collateral. I
can’t alter the terms of that mortgage.
MR. CHRISTMAN: Yes, you can’t—you—you—
THE COURT: I can’t change the payment schedule. I
can’t eliminate the unsecured portion.
MR. CHRISTMAN: Yet if it is wholly unsecured, it
can be satisfied, Your Honor. I think that the—
THE COURT: But if it’s not wholly unsecured, if there’s
one dollar of security—and doesn’t that apply
here, too, along with 1322? I mean am I—don’t—
am I controlled by Third Circuit law here, too?
MR. CHRISTMAN: The—I think—
THE COURT: I’m not trying to put words in your
mouth. I’m just trying to understand that there
is precedent here controlling my decisions here,
and from what I recall is that if there’s one
dollar of collateral protecting a mortgage under
the 1322(b)(2) scenario, I can’t alter the payback,
I can’t modify the terms.

App.31a
MR. CHRISTMAN: I would agree that you can’t modify
the terms. I believe that the—
THE COURT: I can’t change the interest rate.
MR. CHRISTMAN: To the extent that the mortgage
would be eliminated in the Chapter 13, the
Bankruptcy Code seems to provide a substantial
basis.
THE COURT: Do you have any response to that,
Counsel? Mr. Adams?
MR. ADAMS: Your Honor, your recollection is absolutely correct. There is a binding precedent, but
at the Third Circuit level, not the U.S. Supreme
Court level, interpreting Section 322(b)(2) [sic]
to be consistent with your understanding. In circumstances where the secured claim is secured
solely by the debtor’s principal residence, and
there’s at least one dollar worth of equity in the
property for the secured claim, 1322(b)(2) prohibits
any modification of the secured creditor’s rights
under the contract documents, and those rights
are defined by the note and the mortgage. They
fix the monthly principal and interest payment, the
mortgage establishes an additional monthly payment for escrow items, the note fixes the interest
rate, and in this case, it’s the loan modification
agreement that switched the adjustable rate to
a fixed rate.
The note and mortgage provides that the creditor
is entitled to full payment of all amounts due
before it has to satisfy the mortgage. Those are
all rights that are protected from modification.

App.32a
This Court recognized Nobelman ’s interpretation
of 322(b)(2) [sic] in In Re: Knapp, in 1997, and
you followed it in a summary judgment context,
there is—there’s absolutely no distinction between
the argument that satisfaction or elimination is
different than modification.
Counsel’s suggesting that satisfaction means
something different because it means to discharge
an obligation. But what the proposed plans in
this case are proposing is to discharge the obligation to the U.S. Bank by paying less than the
contractual obligation due, and that’s a modification.
There’s also no case law and no reasonable interpretation of the Bankruptcy Code to suggest that
the anti modification provisions of 1322(b)(2) only
apply at the end of the plan. They apply, you know,
as part of what you—can be included in the plan.
And so during this—if the plan is confirmed, then
during the plan period, the debtor would be
making payments to U.S. Bank in amounts that
are different than those provided in the contract
documents, which is clearly prohibited by 322(b)(2)
[sic].
THE COURT: Okay. I’m satisfied that Mr. Adams’
argument is the correct disposition—demonstrates
a correct disposition of this. Cases were cited to
include Judge Opel’s ruling off the bench in an
earlier case that was given to me that was in
your briefs.
And for the reasons set forth on this record, along
with those presented by Mr. Adams in his brief,

App.33a
I am going to grant summary judgment in favor
of U.S. Bank.
MR. CHRISTMAN: Thank you, Your Honor.
MR. ADAMS: Thank you, Your Honor.
THE COURT: Thank you.
(Whereupon, at 10:08 a.m.,
the hearing was adjourned.)

App.34a
ORDER OF THE UNITED STATES
BANKRUPTCY COURT
GRANTING DEFENDANTS’ MOTION
FOR SUMMARY JUDGMENT
(MARCH 22, 2018)
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE MIDDLE DISTRICT OF
PENNSYLVANIA
________________________
IN RE: LLOYD ALLEN JONES,

Debtor.
________________________
LLOYD ALLEN JONES,

Plaintiff,
v.
U.S. BANK, NA, AS TRUSTEE FOR RESIDENTIAL
ASSET SECURITIES CORPORATION, HOME
EQUITY MORTGAGE ASSET-BACKED, PASSTHROUGH CERTIFICATES, SERIES 2006-EMX9
AND AMERICA’S SERVICING COMPANY,

Defendants.
________________________
Case No. 5:16-bk-02223-JJT
Chapter 13
Adversary No. 5:17-ap-00036-JJT
Before: Hon. John J. THOMAS, Bankruptcy Judge.

App.35a

AND NOW upon consideration of Defendants’
Motion for Summary Judgment Pursuant to Fed. R.
Bank. P. 7056 (the “Motion”)1, and any response thereto, IT IS HEREBY ORDERED, that the Motion is
granted and summary judgment is hereby entered in
favor of the Defendants and against the Debtor consistent with the terms of this Order.
It is further ORDERED that: (1) pursuant to the
agreement of the parties the value of the Debtor’s
Property for plan confirmation purposes in the Debtor’s
underlying bankruptcy case is hereby established in
the amount of $136,000.00; (2) U.S. Bank shall have
an allowed secured claim in the Debtor’s underlying
bankruptcy case in the amount of $136,000.00 and
an allowed unsecured claim for all sums due under
the Loan Documents as of the Petition Date that are
in excess of $136,000.00; (3) all other relief requested
by the Debtor in Count I of the Complaint is hereby
denied; (4) all of the relief requested by the Debtor in
Count II of the Complaint is denied because the First
Amended Plan’s proposed treatment of U.S. Bank’s
secured claim violates Section 1322(b)(2) of Title 11,
United States Code and the United States Supreme
Court’s holding in Nobelman v. American Savings
Bank, 113 S. Ct. 2106, 124 L.Ed.2d. 228 (1993); (5)
confirmation of the Debtor’s First Amended Plan is
hereby denied pursuant to 11 U.S.C. §1325(a)(1)
because the First Amended Plan does not comply with
11 U.S.C. § 1322(b)(2); and (6) within thirty (30) days
of the entry of this Order the Debtor shall file a
1 All defined terms in the Motion are incorporated herein by
reference

App.36a
proposed Seconded Amended Plan that does not propose to modify U.S. Bank’s rights with respect to the
U.S. Bank Secured Claim and that otherwise complies
in all other respects with Sections 1322 and 1325 of
the Bankruptcy Code, including but not limited to
Section 1322(b)(2) and 1322(b)(5).
By the Court
/s/ John J. Thomas
Bankruptcy Judge
Dated: March 22, 2018

App.37a
ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT
DENYING PETITION FOR REHEARING EN BANC
(OCTOBER 28, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
IN RE: LLOYD ALLAN JONES
a/k/a Lloyd A. Jones; a/k/a Lloyd Jones,

Debtor,
LLOYD ALLAN JONES

Appellant,
v.
U.S. BANK, N.A., as Trustee for Residential Asset
Securities Corporation, Home Equity Mortgage
Asset-Backed, Pass-through Certificates, Series
2006-EMX9; AMERICA’S SERVICING COMPANY,
________________________
No. 19-3899
(D.C. No. 3-18-cv-01680)
Sur Petition For Rehearing
Before: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS,
and FISHER, Circuit Judges.
 Hon. D. Michael Fisher vote is limited to panel rehearing only.

App.38a

The petition for rehearing filed by Appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition
for rehearing by the panel and the Court en banc, is
denied.
By the Court
/s/ Patty Shwartz
Circuit Judge
Date: October 28, 2020
Lmr/cc: All Counsel of Record

App.39a
STATUTORY PROVISIONS INVOLVED
11 U.S.C. § 506
§ 506. Determination of secured status
(a)
(1) An allowed claim of a creditor secured by a
lien on property in which the estate has an
interest, or that is subject to setoff under section
553 of this title, is a secured claim to the extent
of the value of such creditor’s interest in the
estate’s interest in such property, or to the
extent of the amount subject to setoff, as the
case may be, and is an unsecured claim to the
extent that the value of such creditor’s interest
or the amount so subject to setoff is less than the
amount of such allowed claim. Such value shall
be determined in light of the purpose of the
valuation and of the proposed disposition or use
of such property, and in conjunction with any
hearing on such disposition or use or on a plan
affecting such creditor’s interest.
(2) If the debtor is an individual in a case under
chapter 7 or 13, such value with respect to
personal property securing an allowed claim
shall be determined based on the replacement
value of such property as of the date of the filing
of the petition without deduction for costs of sale
or marketing. With respect to property acquired for
personal, family, or household purposes, replacement value shall mean the price a retail merchant
would charge for property of that kind considering

App.40a
the age and condition of the property at the time
value is determined.
(b)
To the extent that an allowed secured claim is
secured by property the value of which, after
any recovery under subsection (c) of this section,
is greater than the amount of such claim, there
shall be allowed to the holder of such claim,
interest on such claim, and any reasonable fees,
costs, or charges provided for under the agreement
or State statute under which such claim arose.
(c)
The trustee may recover from property securing
an allowed secured claim the reasonable, necessary
costs and expenses of preserving, or disposing of,
such property to the extent of any benefit to the
holder of such claim, including the payment of
all ad valorem property taxes with respect to the
property.
(d)
To the extent that a lien secures a claim against
the debtor that is not an allowed secured claim,
such lien is void, unless—
(1) such claim was disallowed only under section
502(b)(5) or 502(e) of this title; or
(2) such claim is not an allowed secured claim
due only to the failure of any entity to file a
proof of such claim under section 501 of this
title.

App.41a
11 U.S.C. § 1322
§ 1322. Contents of plan
(a) The plan—
(1) shall provide for the submission of all or such
portion of future earnings or other future
income of the debtor to the supervision and
control of the trustee as is necessary for the
execution of the plan;
(2) shall provide for the full payment, in deferred
cash payments, of all claims entitled to
priority under section 507 of this title, unless
the holder of a particular claim agrees to a
different treatment of such claim;
(3) if the plan classifies claims, shall provide
the same treatment for each claim within a
particular class; and
(4) notwithstanding any other provision of this
section, may provide for less than full payment of all amounts owed for a claim entitled
to priority under section 507(a)(1)(B) only if
the plan provides that all of the debtor’s
projected disposable income for a 5-year
period beginning on the date that the first
payment is due under the plan will be applied
to make payments under the plan.
(b) Subject to subsections (a) and (c) of this section,
the plan may—
(1) designate a class or classes of unsecured
claims, as provided in section 1122 of this
title, but may not discriminate unfairly
against any class so designated; however,

App.42a
such plan may treat claims for a consumer
debt of the debtor if an individual is liable
on such consumer debt with the debtor
differently than other unsecured claims;
(2) modify the rights of holders of secured claims,
other than a claim secured only by a
security interest in real property that is the
debtor’s principal residence, or of holders of
unsecured claims, or leave unaffected the
rights of holders of any class of claims;
(3) provide for the curing or waiving of any
default;
(4) provide for payments on any unsecured claim
to be made concurrently with payments on
any secured claim or any other unsecured
claim;
(5) notwithstanding paragraph (2) of this subsection, provide for the curing of any default
within a reasonable time and maintenance
of payments while the case is pending on any
unsecured claim or secured claim on which
the last payment is due after the date on
which the final payment under the plan is
due;
(6) provide for the payment of all or any part of
any claim allowed under section 1305 of
this title;
(7) subject to section 365 of this title, provide
for the assumption, rejection, or assignment
of any executory contract or unexpired lease
of the debtor not previously rejected under
such section;

App.43a
(8) provide for the payment of all or part of a
claim against the debtor from property of
the estate or property of the debtor;
(9) provide for the vesting of property of the
estate, on confirmation of the plan or at a
later time, in the debtor or in any other
entity;
(10) provide for the payment of interest accruing
after the date of the filing of the petition on
unsecured claims that are nondischargeable
under section 1328(a), except that such
interest may be paid only to the extent that
the debtor has disposable income available
to pay such interest after making provision
for full payment of all allowed claims; and
(11) include any other appropriate provision not
inconsistent with this title.
(c) Notwithstanding subsection (b)(2) and applicable non-bankruptcy law—
(1) a default with respect to, or that gave rise
to, a lien on the debtor’s principal residence
may be cured under paragraph (3) or (5) of
subsection (b) until such residence is sold at
a foreclosure sale that is conducted in
accordance with applicable nonbankruptcy
law; and
(2) in a case in which the last payment on the
original payment schedule for a claim secured
only by a security interest in real property
that is the debtor’s principal residence is due
before the date on which the final payment
under the plan is due, the plan may provide

App.44a
for the payment of the claim as modified
pursuant to section 1325(a)(5) of this title.
(d)
(1) If the current monthly income of the debtor
and the debtor’s spouse combined, when
multiplied by 12, is not less than—
(A) in the case of a debtor in a household of
1 person, the median family income of
the applicable State for 1 earner;
(B) in the case of a debtor in a household of
2, 3, or 4 individuals, the highest median
family income of the applicable State
for a family of the same number or
fewer individuals; or
(C) in the case of a debtor in a household
exceeding 4 individuals, the highest
median family income of the applicable
State for a family of 4 or fewer individuals, plus $525 1 per month for each
individual in excess of 4, the plan may
not provide for payments over a period
that is longer than 5 years.
(2) If the current monthly income of the debtor
and the debtor’s spouse combined, when
multiplied by 12, is less than—
(A) in the case of a debtor in a household of
1 person, the median family income of
the applicable State for 1 earner;

1 See Adjustment of Dollar Amounts notes below.

App.45a
(B) in the case of a debtor in a household of
2, 3, or 4 individuals, the highest median
family income of the applicable State
for a family of the same number or
fewer individuals; or
(C) in the case of a debtor in a household
exceeding 4 individuals, the highest
median family income of the applicable
State for a family of 4 or fewer individuals, plus $5251 per month for each
individual in excess of 4, the plan may
not provide for payments over a period
that is longer than 3 years, unless the
court, for cause, approves a longer period,
but the court may not approve a period
that is longer than 5 years.
(e)
Notwithstanding subsection (b)(2) of this section and sections 506(b) and 1325(a)(5) of
this title, if it is proposed in a plan to cure a
default, the amount necessary to cure the
default, shall be determined in accordance
with the underlying agreement and applicable nonbankruptcy law.
(f)
A plan may not materially alter the terms
of a loan described in section 362(b)(19) and
any amounts required to repay such loan
shall not constitute “disposable income” under
section 1325.
1 See Adjustment of Dollar Amounts notes below.

App.46a
11 U.S.C. § 1325
§ 1325. Confirmation of plan
(a) Except as provided in subsection (b), the court
shall confirm a plan if—
(1) The plan complies with the provisions of this
chapter and with the other applicable provisions
of this title;
(2) any fee, charge, or amount required under
chapter 123 of title 28, or by the plan, to be paid
before confirmation, has been paid;
(3) the plan has been proposed in good faith and
not by any means forbidden by law;
(4) the value, as of the effective date of the plan,
of property to be distributed under the plan on
account of each allowed unsecured claim is not
less than the amount that would be paid on such
claim if the estate of the debtor were liquidated
under chapter 7 of this title on such date;
(5) with respect to each allowed secured claim
provided for by the plan—
(A) the holder of such claim has accepted the
plan;
(B)
(i)

the plan provides that(I)

the holder of such claim retain the
lien securing such claim until the
earlier of—

App.47a
(aa) the payment of the underlying
debt determined under non-bankruptcy law; or
(bb) discharge under section 1328;
and
(II) if the case under this chapter is
dismissed or converted without
completion of the plan, such lien
shall also be retained by such
holder to the extent recognized by
applicable non-bankruptcy law;
(ii) the value, as of the effective date of the
plan, of property to be distributed under
the plan on account of such claim is not
less than the allowed amount of such
claim; and
(iii) if—
(I)

property to be distributed pursuant to
this subsection is in the form of periodic
payments, such payments shall be in
equal monthly amounts; and

(II) the holder of the claim is secured by
personal property, the amount of such
payments shall not be less than an
amount sufficient to provide to the
holder of such claim adequate protection
during the period of the plan; or
(C) the debtor surrenders the property securing
such claim to such holder;
(6) the debtor will be able to make all payments
under the plan and to comply with the plan;

App.48a
(7) the action of the debtor in filing the petition
was in good faith;
(8) the debtor has paid all amounts that are required to be paid under a domestic support obligation and that first become payable after the
date of the filing of the petition if the debtor is
required by a judicial or administrative order, or
by statute, to pay such domestic support obligation; and
(9) the debtor has filed all applicable Federal,
State, and local tax returns as required by section
1308. For purposes of paragraph (5), section 506
shall not apply to a claim described in that paragraph if the creditor has a purchase money
security interest securing the debt that is the
subject of the claim, the debt was incurred within
the 910-day period preceding the date of the
filing of the petition, and the collateral for that
debt consists of a motor vehicle (as defined in
section 30102 of title 49) acquired for the personal
use of the debtor, or if collateral for that debt
consists of any other thing of value, if the debt
was incurred during the 1-year period preceding
that filing.
(b)
(1) If the trustee or the holder of an allowed
unsecured claim objects to the confirmation
of the plan, then the court may not approve
the plan unless, as of the effective date of
the plan—
(A) the value of the property to be distributed
under the plan on account of such claim

App.49a
is not less than the amount of such claim;
or
(B) the plan provides that all of the debtor’s
projected disposable income to be
received in the applicable commitment
period beginning on the date that the
first payment is due under the plan
will be applied to make payments to
unsecured creditors under the plan.
(2) For purposes of this subsection, the term
“disposable income” means current monthly
income received by the debtor (other than
payments made under Federal law relating
to the national emergency declared by the
President under the National Emergencies
Act (50 U.S.C. 1601 et seq.) with respect to the
coronavirus disease 2019 (COVID-19), child
support payments, foster care payments, or
disability payments for a dependent child
made in accordance with applicable nonbankruptcy law to the extent reasonably necessary
to be expended for such child) less amounts
reasonably necessary to be expended—
(A)
(i)

for the maintenance or support of the
debtor or a dependent of the debtor, or
for a domestic support obligation, that
first becomes payable after the date the
petition is filed; and

(ii) for charitable contributions (that meet
the definition of “charitable contribution”
under section 548(d)(3)) to a qualified
religious or charitable entity or organi-

App.50a
zation (as defined in section 548(d)(4))
in an amount not to exceed 15 percent
of gross income of the debtor for the year
in which the contributions are made;
and
(B) if the debtor is engaged in business, for the
payment of expenditures necessary for the
continuation, preservation, and operation of
such business.
(3) Amounts reasonably necessary to be expended
under paragraph (2), other than subparagraph
(A)(ii) of paragraph (2), shall be determined
in accordance with subparagraphs (A) and (B)
of section 707(b)(2), if the debtor has current
monthly income, when multiplied by 12,
greater than—
(A) in the case of a debtor in a household of
1 person, the median family income of
the applicable State for 1 earner;
(B) in the case of a debtor in a household of
2, 3, or 4 individuals, the highest median
family income of the applicable State
for a family of the same number or fewer
individuals; or
(C) in the case of a debtor in a household
exceeding 4 individuals, the highest
median family income of the applicable
State for a family of 4 or fewer individuals, plus $525 1 per month for each
individual in excess of 4.
(4) For purposes of this subsection, the “applicable commitment period”—

App.51a
(A) subject to subparagraph (B), shall be—
(i)

3 years; or

(ii) not less than 5 years, if the current
monthly income of the debtor and
the debtor’s spouse combined, when
multiplied by 12, is not less than—
(I) in the case of a debtor in a
household of 1 person, the median
family income of the applicable
State for 1 earner;
(II) in the case of a debtor in a
household of 2, 3, or 4 individuals,
the highest median family income
of the applicable State for a family
of the same number or fewer individuals; or
(III) in the case of a debtor in a
household exceeding 4 individuals,
the highest median family income
of the applicable State for a family
of 4 or fewer individuals, plus $5251
per month for each individual in
excess of 4; and
(B) may be less than 3 or 5 years, whichever
is applicable under subparagraph (A),
but only if the plan provides for payment
in full of all allowed unsecured claims
over a shorter period.
(c) After confirmation of a plan, the court may order
any entity from whom the debtor receives income
1 See Adjustment of Dollar Amounts notes below.

App.52a
to pay all or any part of such income to the
trustee.

App.53a
SECOND AMENDED CHAPTER 13 PLAN
(DECEMBER 27, 2017)
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE MIDDLE DISTRICT OF
PENNSYLVANIA
________________________
IN RE: LLOYD ALLAN JONES
a/k/a Lloyd A. Jones; a/k/a Lloyd Jones,

Debtor.
________________________
Case No. 5:16-bk-02223
Chapter 13
2nd Amended Plan (Indicate 1st, 2nd, 3rd, etc.)
1 Number of Motions to Avoid Liens
1 Number of Motions to Value Collateral
CHAPTER 13 PLAN
NOTICES
Debtors must check one box on each line to state
whether or not the plan includes each of the following
items. If an item is checked as “Not Included” or if
both boxes are checked or if neither box is checked,
the provision will be ineffective if set out later in the
plan.
1

The plan contains nonstandard  Included
provisions, set out in § 9, which are
not included in the standard plan as
approved by the U.S. Bankruptcy

App.54a
Court for the Middle District of
Pennsylvania.
2

The plan contains a limit on the  Included
amount of a secured claim, set out in
§ 2.E, which may result in a partial
payment or no payment at all to the
secured creditor.

2

The plan avoids a judicial lien or  Included
nonpossessory, nonpurchase-money
security interest, set out in § 2.G.
YOUR RIGHTS WILL BE AFFECTED

READ THIS PLAN CAREFULLY. If you oppose
any provision of this plan, you must file a timely
written objection. This plan may be confirmed and
become binding on you without further notice or
hearing unless a written objection is filed before the
deadline stated on the Notice issued in connection
with the filing of the plan.
1.

Plan Funding and Length of Plan.
A. Plan Payments From Future Income

1. To date, the Debtor paid $36,020 (enter $0 if
no payments have been made to the Trustee to date).
Debtor shall pay to the Trustee for the remaining
term of the plan the following payments. If applicable,
in addition to monthly plan payments, Debtor shall
make conduit payments through the Trustee as set
forth below. The total base plan is $168,000, plus
other payments and property stated in § 1B below:

App.55a
Start mm/yyyy

12/2017

End mm/yyyy

12/2019

Plan Payment

$2,900

Estimated Conduit Payment

$-0-

Total Monthly Payment

$2,900

Total Payment Over Plan Tier

$72,500

Start mm/yyyy

01/2020

End mm/yyyy

05/2021

Plan Payment

$3,250

Estimated Conduit Payment

$-0-

Total Monthly Payment

$3,250

Total Payment Over Plan Tier

$55,250

Start mm/yyyy

06/2021

End mm/yyyy

06/2021

Plan Payment

$4,230

Estimated Conduit Payment

$-0-

Total Monthly Payment

$4,230

Total Payment Over Plan Tier

$4,230

Total Payments:

$131,980

2. If the plan provides for conduit mortgage payments, and the mortgagee notifies the Trustee that a
different payment is due, the Trustee shall notify the
Debtor and any attorney for the Debtor, in writing,

App.56a
to adjust the conduit payments and the plan funding.
Debtor must pay all post-petition mortgage payments
that come due before the initiation of conduit mortgage
payments.
3. Debtor shall ensure that any wage attachments
are adjusted when necessary to conform to the terms
of the plan.
4. CHECK ONE: (X) Debtor is at or under median
income. If this line is checked, the rest of § 1.A.4

need not be completed or reproduced.

B. Additional Plan Funding From Liquidation of
Assets/Other
1. The Debtor estimates that the liquidation
value of this estate is $________. (Liquidation value
is calculated as the value of all nonexempt assets
after the deduction of valid liens and encumbrances
and before the deduction of Trustee fees and priority
claims.)

Check one of the following two lines.
 No assets will be liquidated. If this line is
checked, the rest of § 1.B need not be completed or
reproduced.
2.

Secured Claims.
A. Pre-Confirmation Distributions.
Check one.

 Adequate protection and conduit payments in
the following amounts will be paid by the Debtor to
the Trustee. The Trustee will disburse these payments
for which a proof of claim has been filed as soon as

App.57a
practicable after receipt of said payments from the
Debtor.
Name of Creditor

US Bank/America’s
Servicing Co.

Last Four Digits of
Account Number

9651

Estimated Monthly
Payment

$2,595.81

1. The Trustee will not make a partial payment.
If the Debtor makes a partial plan payment, or if it is
not paid on time and the Trustee is unable to pay
timely a payment due on a claim in this section, the
Debtor’s cure of this default must include any applicable late charges.
2. If a mortgagee files a notice pursuant to
Bankr. Rule 3002.1(b), the change in the conduit
payment to the Trustee will not require modification
of this plan.
B. Mortgages (Including Claims Secured by
Debtor’s Principal Residence) and Other Direct
Payments by Debtor.
Check one.
 Payments will be made by the Debtor directly
to the creditor according to the original contract
terms, and without modification of those terms
unless otherwise agreed to by the contracting
parties. All liens survive the plan if not avoided or
paid in full under the plan.

App.58a
Name of Creditor

Ally Financial

Description of Collateral

Auto loan on 2011 Toyota
Rav4

Last Four Digits of
Account Number

6020

C. Arrears, including, but not limited to, claims
secured by Debtor’s principal residence.
Check one.
 The Trustee shall distribute to each creditor
set forth below the amount of arrearages in the
allowed proof of claim. If post-petition arrears are not
itemized in an allowed claim, they shall be paid in the
amount stated below. Unless otherwise ordered, if
relief from the automatic stay is granted as to any
collateral listed in this section, all payments to the
creditor as to that collateral shall cease, and the
claim will no longer be provided for under § 1322(b)(5)
of the Bankruptcy Code:
Name of Creditor

Ally Financial

Description of Collateral

Auto loan on 2011 Toyota
Rav4

Estimated Pre-petition
Arrears to be Cured

$123.51

Estimated Post-petition $0
Arrears to be Cured
Estimated Total to be
paid in plan

$paid direct

App.59a
D. Other secured claims (conduit payments,
claims for which a § 506 valuation is not
applicable, etc.)
 None. If “None” is checked, the rest of § 2.D
need not be completed or reproduced.
E. Secured claims for which a § 506 valuation is
applicable.
Check one.
 Claims listed in the subsection are debts
secured by property not described in § 2.D of this
plan. These claims will be paid in the plan according
to modified terms, and liens retained until entry of
discharge. The excess of the creditor’s claim will be
treated as an unsecured claim. Any claim listed as
“$0.00” or “NO VALUE” in the “Modified Principal
Balance” column below will be treated as an
unsecured claim. The liens will be avoided or limited
through the plan or Debtor will file an adversary
action (select method in last column). To the extent not
already determined, the amount, extent or validity of
the allowed secured claim for each claim listed below
will be determined by the court at the confirmation
hearing. Unless otherwise ordered, if the claimant
notifies the Trustee that the claim was paid, payments
on the claim shall cease.
Name of Creditor

US Bank/America’s
Servicing Co.

Description of Collateral

303 Rustic Drive, East
Stroudsburg, PA 18301

Modified Principal Balance

$136,000

App.60a
Interest Rate

5.5%

Total Payment

$145,365.60 (plus $10,500
paid direct;
total:$155,865.60)

Plan or Adversary Action

Adversary

F. Surrender of Collateral.
Check one.
 The Debtor elects to surrender to each
creditor listed below the collateral that secures the
creditor’s claim. The Debtor requests that upon
confirmation of this plan the stay under 11 U.S.C.
§ 362(a) be terminated as to the collateral only and
that the stay under § 1301 be terminated in all
respects. Any allowed unsecured claim resulting from
the disposition of the collateral will be treated in
Part 4 below.
Name of Creditor

Nissan-Infiniti (Proof of
Claim No. 1)

Description of Collateral 2014 Nissan Sentra
to be Surrendered
G. Lien Avoidance.
Do not use for mortgages or for statutory liens,
such as tax liens. Check one.
 None. If “None” is checked, the rest of § 2.G

need not be completed or reproduced.

App.61a
3. Priority Claims.
A. Administrative Claims
1. Trustee’s Fees. Percentage fees payable to the
Trustee will be paid at the rate fixed by the United
States Trustee.
2. Attorney’s fees. Complete only one of the
following options:
a.

In addition to the retainer of $500 already
paid by the Debtor, the amount of $3,500 in
the plan. This represents the unpaid balance
of the presumptively reasonable fee specified
in L.B.R. 2016-2(c); or

b.

$_________ per hour, with the hourly rate to
be adjusted in accordance with the terms of
the written fee agreement between the
Debtor and the attorney. Payment of such
lodestar compensation shall require a
separate fee application with the compensation approved by the Court pursuant to
L.B.R. 2016-2(b).

3. Other. Other administrative claims not
included in §§ 3.A.1 or 3.A.2 above.
Check one of the following two lines.
 None. If “None” is checked, the rest of § 3.A.3
need not be completed or reproduced.
B. Priority Claims (including, but not limited to,
Domestic Support Obligations other than
those treated in § 3.C below).
Check one of the following two lines.

App.62a
 Allowed unsecured claims, including domestic
support obligations, entitled to priority under § 1322(a)
will be paid in full unless modified under § 10.
C. Domestic Support Obligations assigned to or
owed to a governmental unit under 11 U.S.C.
§ 507(a)(1)(B).
Check one of the following two lines.
 None. If “None” is checked, the rest of § 3.C

need not be completed or reproduced.
4.

Unsecured Claims
A. Claims of Unsecured Nonpriority Creditors
Specially Classified.
Check one of the following two lines.

 To the extent that funds are available, the
allowed amount of the following unsecured claims, such
as co-signed unsecured debts, will be paid before
other, unclassified, unsecured claims. The claim shall
be paid interest at the rate stated below. If no rate is
stated, the interest rate set forth in the proof of claim
shall apply.
Name of Creditor

Reason for Special
Classification

Merrick Bank (Claim No. 3) Wholly unsecured claim
paid in full (See 8.B.
below)
Estimated Amount Interest Rate
of Claim

Estimated Total
Payment

$663.04

$663.04

0%

App.63a

Name of Creditor

Reason for Special
Classification

Capital One Bank
(Claim No. 4)

Wholly unsecured claim
paid in full (See 8.B.
below)

Estimated Amount Interest Rate
of Claim

Estimated Total
Payment

$221.26

$221.26

0%

Name of Creditor

Reason for Special
Classification

LVNV Funding (Claim No. Wholly unsecured claim
5)
paid in full (See 8.B.
below)
Estimated Amount Interest Rate
of Claim

Estimated Total
Payment

$745.97

$745.97

0%

Name of Creditor

Reason for Special
Classification

PA Department of Revenue Wholly unsecured claim
(Claim No. 7)
paid in full (See 8.B.
below)
Estimated Amount Interest Rate
of Claim

Estimated Total
Payment

$$818.93

$818.93

0%

App.64a
B. Remaining allowed unsecured claims will
receive a pro-rata distribution of funds
remaining after payment of other classes.
[****]
5.

Executory Contracts and Unexpired Leases.
Check one of the following two lines.
 None. If “None” is checked, the rest of § 5

need not be completed or reproduced.
6.

Vesting of Property of the Estate.
Property of the estate will vest in the Debtor
upon
Check the applicable line:
 closing of case:

7.

DISCHARGE: (Check one)

 The debtor will seek a discharge pursuant to
§ 1328(a).
8.

Order of Distribution:

If a pre-petition creditor files a secured, priority
or specially classified claim after the bar date, the
Trustee will treat the claim as allowed, subject to
objection by the Debtor.
Payments from the plan will be made by the
Trustee in the following order:
Level 1

Adequate protection
payments

$-0-

Level 2

Debtor’s attorney’s fees.

$3,500.00

App.65a
Level 3

Domestic Support
Obligations

$-0-

Level 4

Priority claims, pro
rata

$4,073.36

Level 5

Secured claims, pro
rata

$145,365.60

Level 6

Specially classified
unsecured claims

$2,449.20

Level 7

General unsecured
claims

$-0-

Level 8

Untimely
filed
un- $-0secured claims to which
the debtor(s) has/have
not objected.

Subtotal

$155,388.16

Trustee Commission (Estimated at $12,611.84
7.5%
Total

$168,000

If the above Levels are filled in, the rest of § 8
need not be completed or reproduced. If the above
Levels are not filled-in, then the order of distribution
of plan payments will be determined by the Trustee
using the following as a guide:
Level 1: Adequate protection payments.
Level 2: Debtor’s attorney’s fees.
Level 3: Domestic Support Obligations.
Level 4: Priority claims, pro rata.

App.66a
Level 5: Secured claims, pro rata.
Level 6: Specially classified unsecured claims.
Level 7: Timely filed general unsecured claims.
Level 8: Untimely filed general unsecured claims
to which the Debtor has not objected.
9.

Nonstandard Plan Provisions

Include the additional provisions below or on an
attachment. Any nonstandard provision placed elsewhere in the plan is void. (NOTE: The plan and any
attachment must be filed as one document, not as a
plan and exhibit.)
A. The first lien position mortgage of U.S. Bank,
N.A., as Trustee for Residential Asset Securities Corporation, Home Equity Mortgage Asset-backed Passthrough Certificates, Series 2006-EMX9, serviced by

Wells Fargo Bank, N.A., doing business as America’s
Servicing Company, its successors, predecessors and

assigns, hereinafter referred to as “Lender”, is being
satisfied and avoided via this Plan.
(i)

Confirmation of this Plan shall constitute a
finding that for purposes of this bankruptcy
case and all matters relevant thereto the
value of the real property known as 303
Rustic Drive, East Stroudsburg, PA 18301,
also known as Lot 27, Phase 1, Middle
Smithfield Township, also known as tax
parcel I.D. No. 09/88785, and the Deed for
this property having been recorded with the
Recorder of Deeds in and for Monroe County,
Pennsylvania at Monroe County Deed Book
Volume 2380, Page 64, hereinafter referred

App.67a
to as the “Property”, is $136,000. Documentation verifying this value is or will be
filed of record with this Court. Debtor
reserves the right to amend this Plan should
a different value be demonstrated correct,
such as through further appraisal or litigation.
(ii) Upon confirmation of this Plan the
remainder of the balance owed to Lender, to
the extent it is in excess of $136,000, shall
be deemed a general unsecured claim
without further Order of this Court, provided that:
(A) Lender’s claim, upon the filing of a
valid and timely Proof of Claim, shall
be allowed as a non-priority general
unsecured claim to the extent it is in
excess of $136,000 and may share in
any distribution to general unsecured
creditors;
(B) The avoidance of Lender’s lien is
contingent upon the Debtor’s completion of the Chapter 13 Plan and receipt
of a Chapter 13 Discharge;
(C) Upon receipt of the Debtors’ Chapter
13 discharge and completion of Debtors’
Chapter 13 Plan, Lender shall within a
reasonable time arrange to have the
second lien position mortgage marked
“satisfied” with the Monroe County
Recorder of Deeds;
(D) Lender shall retain its lien for the full
amount due under the subject loan

App.68a
should the property be sold or should a
refinance take place prior to the completion of the Chapter 13 Plan and entry
of a Discharge;
(E) Lender shall retain its lien for the full
amount due under the subject loan in
the event of either the dismissal of the
Debtor’s Chapter 13 case or the conversion of the case to another Chapter
under the United States Bankruptcy
Code.;
(F) In the event that any entity, including
the holder of any senior lien on the
Property, forecloses on its security
interest and extinguishes Lender’s lien
prior to the Debtor’s completion of the
Chapter 13 Plan and receipt of a Chapter
13 Discharge, Lender’s lien shall attach
to the surplus proceeds of the sale for
the full amount of the subject loan
balance at the time of the sale;
(G) In the event that the property is
destroyed or damaged, pursuant to the
terms of the mortgage, Lender is
entitled to its full rights as a loss payee
with respect to the insurance proceeds
and has a security interest in such proceeds up to the entire balance due on
the mortgage;
(H) Each party shall bear their own attorneys’ fees and costs incurred in this
matter.

App.69a
(iii) The Confirmation Order and Discharge Order
may be filed with the Recorder of Deeds in
and for Monroe County, Pennsylvania, which
shall satisfy and avoid the mortgage held by
Lender against the Property, as recorded at
Monroe County Record Book Volume 2279,
Page 1861.
B. Timely filed and allowed unsecured claims
shall be paid in full, which includes Proof of Claim
Nos. 3, 4 and 5. See section 4.A., above.
C. Debtor surrenders any and all interest in the
2014 Nissan Sentra in full satisfaction of any
amount due on Proof of Claim No. 1 of NissanInfiniti.
D. This Chapter 13 Plan provides a distribution
chart in Section 8 above that provides estimated
distributions to classes of creditors and the Trustee,
in addition to all information indicated by the Model
Plan.
/s/ J. Zac Christman Esq.
Attorney for Debtor
/s/ Lloyd Allan Jones
Debtor
None
Joint Debtor

App.70a
By filing this document, the debtor, if not represented by an attorney, or the Attorney for Debtor
also certifies that this plan contains no nonstandard
provisions other than those set out in § 9.
Dated: December 27, 2017

